L

No.

IN THE
SUPREME COURT OF THE UNITED STATES

CARL WOMACK (Petitioner)
Vs.
Merrimon Oxley (respondent)

PROOF OF SERVICE

I, Carl Womack, do swear or declare that on this date,
2021 as required by
Supreme Court Rule 29,1 have served the enclosed M< ion For Leave Tu Pruceed-hf^
Forma Pauperis and Petition-Pei? Writ Of Certiorari oA each party to the above
proceeding, or party’s counsel. And on every other person as required to be served
by depositing an envelope containing the above documents, in the US MAIL,
properly addressed to each of them, and with certified delivery.
The names and addresses of those served are as follows

I declare under penalty of perjury that the foregoing is true and correct. Executed
on
2021

Signature

•*

*
i

1

c

?
v.

